            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

     SUPPLEMENTAL SECURITY INCOME
APPLICANTS WITH EARNINGS RECEIVED AFTER
 THEIR DISABILITY ONSET DATES AND BEFORE
      FAVORABLE HEARING DECISIONS


       October 2012   A-02-10-20128




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:   October 26, 2012                                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Supplemental Security Income Applicants with Earnings Received After Their Disability
        Onset Dates and Before Favorable Hearing Decisions (A-02-10-20128)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA)
        appropriately addressed earnings received by Supplemental Security Income (SSI)
        applicants after their disability onset dates and before favorable hearing decisions.

        BACKGROUND

        The SSI program is a national Federal cash assistance program administered by SSA
        that provides a minimum level of income to financially needy individuals who are aged,
        blind, or disabled. 1 To be considered disabled for SSI, a person must be unable to
        engage in any substantial gainful activity (SGA) by reason of any medically
        determinable physical or mental impairment that can be expected to result in death or
        that has lasted or can be expected to last for a continuous period of not less than
        12 months. 2 SSA defines SGA as the performance of significant physical or mental
        activities in work for pay or profit or in work of a type generally performed for pay or
        profit. 3

        The Office of Disability Adjudication and Review administers the hearings and appeals
        program for SSA. An applicant who is denied benefits at the initial and reconsideration




        1
            The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
        2
            The Social Security Act § 1614(a)(3)(A), 42 U.S.C. § 1382c(a)(3)(A).
        3
            SSA, POMS, DI 24001.001 Definition of Substantial Gainful Activity (SGA) (May 13, 1999).
Page 2 - The Commissioner


levels may request a hearing before an administrative law judge (ALJ). 4 ALJs review
evidence and make an independent decision to allow or deny the applicant’s disability
claim. 5

Under the Social Security Act, 6 SSA established a five-step sequential evaluation
process for determining whether an individual is disabled. 7 The five steps determine
whether the applicant is working; medical condition is severe; condition is a listed
impairment under SSA regulation; applicant can perform past work; and applicant can
perform other work. The steps are followed in order. If it is determined that the
applicant is disabled or not disabled at a step in the evaluation process, the evaluation
does not proceed to the next step. 8

At step one, the ALJ must determine whether the applicant is engaged in SGA. 9 In
2012, the level of earnings that constituted SGA was $1,010 per month for sighted
individuals and $1,690 for blind individuals. 10

Generally, if an SSI applicant engages in SGA, he/she is not considered disabled for
SSI eligibility purposes, regardless of how severe his/her physical or mental impairment
is and regardless of his/her age, education, or work experience. If the individual is
engaging in SGA, his/her medical condition, age, education, and work experience are
not considered. 11

From 2005 to 2010, there were approximately 1.2 million 12 fully favorable SSI disability
hearing decisions. We identified 3,156 SSI recipients 13 in current pay status from
1 segment of the Supplemental Security Record (SSR) who had earnings after their


4
    20 C.F.R. §§ 416.1429 and 416.1430.
5
    20 C.F.R. § 416.1453.
6
    The Social Security Act § 1614(a)(3)(B).
7
    20 C.F.R. § 416.920(a).
8
    20 C.F.R. § 416.920(a)(4).
9
    20 C.F.R. § 416.920(b).
10
  See Appendix C for SGA Earnings Guidelines. Note - In determining whether an SSI applicant
performed SGA, SSA subtracts the value of any subsidized earnings and the costs of any impairment-
related work expenses from an applicant’s gross earnings. The resulting amount is the amount used to
determine whether an applicant has performed SGA. SSA, POMS, DI 10505.001.A (March 27, 2012).
11
     20 C.F.R. §§ 416.2210(a), 404.1571-1573 and 416.971-973.
12
  This figure includes both SSI and concurrent decisions. This figure includes all disability decisions,
including disabled child claims for Fiscal Years 2005 through 2010. Our review of one segment did not
include disabled child claims and was for Calendar Years 2005 through 2010.
13
     One segment of the SSR represents 5 percent of the total population of SSI recipients.
Page 3 - The Commissioner


established disability onset date 14 but before a favorable decision at the hearing level.
We determined the amount of earnings and its relation to SGA for each of these
recipients. For those recipients who had earnings in more than 1 year during this
period, we reviewed the year in which they had the highest earnings. Of the
3,156 recipients, 112 had earnings exceeding 12 times the monthly SGA limit in the
year we reviewed. Another 1,873 individuals had earnings of more than 1 but less than
12 times the monthly SGA limit. The remaining 1,171 recipients had earnings of less
than 1 time the monthly SGA limit.

For our review, we focused on the 112 recipients with earnings exceeding 12 times the
monthly SGA in a year after their disability onset dates and before a favorable hearing
decision. Their earnings most likely affected the recipients’ SSI eligibility and payment
amounts. In 94 of the 112 cases, we found that the earnings 15 were posted 16 on the
individuals’ earnings records before their hearing date. We reviewed the ALJ rationales
to determine whether they fully addressed these earnings. In the remaining 18 cases,
the earnings were posted after the hearing. For these cases, we determined whether
SSA considered the effect of the earnings on the recipients’ disability onset dates and
SSI payments.

                          112 Cases with Earnings Exceeding 12 Times the
                                           Monthly SGA
                                    Earnings Were Posted Before the Hearing
                                    Earnings Were Posted After the Hearing

                                                18
                                               16%




                                                              94
                                                             84%




14
  The disability onset date, or established onset date, is the date the disability adjudicator determines the
applicant’s disability began based on the medical and other evidence in the case record. SSA, POMS, DI
25501.001.E.3 (May 11, 2012). The disability onset date for SSI only claims is usually the date of filing
(or protective filing date) if supported by the medical evidence. SSA, POMS, DI 25501.051.A (June 12,
2008).
15
  We use the term “earnings” generically in this report to refer to earnings received after an SSI
recipient’s disability onset date and before the hearing date.
16
   SSA records contain electronic and microfilm records of Federal Insurance Contribution Act (FICA)
wage reports; electronic records of self-employment data provided by the Internal Revenue Service (IRS)
from Schedule SE of income tax returns; non-FICA earnings for workers in noncovered employment; and
private pension information provided by IRS for workers who have vested rights to a future pension.
Page 4 - The Commissioner


We provided the results of our review to SSA. We requested that SSA determine
whether the earnings we identified constituted SGA. SSA forwarded the cases to field
office staff for development. 17 We adjusted our findings based on its comments.

RESULTS OF REVIEW
SSA did not always address earnings on the records of SSI applicants who had
12 times SGA in a year after their disability onset dates and before favorable hearing
decisions. Additionally, SSA did not always evaluate the effect of earnings posted to
recipients’ records after hearings on their eligibility or SSI payment amount.
Specifically, we found that ALJ decisions did not address the recipients’ earnings on the
record before a favorable decision in 56 (60 percent) of 94 cases. Also, SSA did not
consider the effect of earnings posted after a favorable hearing decision on the
recipients’ eligibility or SSI payment amount in 14 (78 percent) of 18 cases. Had SSA
considered the earnings, it would have determined the individuals were either ineligible
for SSI or had a later disability onset date. We estimate that SSA made improper
payments of almost $5.6 million because it did not appropriately address the earnings.
See Appendix B for our scope, methodology, and sample results.

We recognize the number of cases of recipients with earnings between their disability
onset dates and favorable hearing decisions was relatively small when compared to the
number of favorable decisions overall. 18 Nevertheless, SSA is missing the opportunity
to prevent improper payments when it has the information it needs to do so.
Additionally, our findings may understate the full effect of this issue. We based our
findings on an analysis of the 112 recipients from 1 segment of the SSR who had more
than 12 times SGA between the recipients’ disability onset date and a favorable hearing
decision. We also identified an additional 1,873 individuals from 1 segment of the SSR
who had earnings of more than 1, but less than 12, times the monthly SGA limit. These
earnings may have also affected applicants’ disability onset dates or SSI eligibility.

EARNINGS POSTED BEFORE A HEARING

We found that earnings exceeding 12 times the SGA limit were posted on 94 of the
112 individuals’ records we reviewed in a year before their hearing dates. SSA policy
states that before an adjudicator issues a favorable decision, they must develop all work
activity after potential onset dates. 19




17
 To determine whether work performed constituted SGA, SSA considered factors such as unsuccessful
work attempts, impairment-related work expenses, and subsidized earnings received by the applicants.
18
   Between Fiscal Years 2005 and 2010, ALJs made about 1.2 million fully favorable SSI disability hearing
decisions. We identified 3,156 recipients between Calendar Years 2005 and 2010 who had earnings
after their disability onset dates and before favorable hearing decisions.
19
     20 C.F.R. §§ 416.2210(a), 404.1571-1573 and 416.971-973.
Page 5 - The Commissioner


Of the 94 cases, we found the following.
      •   The ALJ decisions addressed the earnings after disability onset in 22 cases.
      •   The ALJ decisions did not address the earnings after onset and their potential
          impact on disability entitlement in 56 cases.
      •   We were unable to determine whether the ALJs addressed the earnings for
          16 cases 20 because SSA could not locate the ALJ decisions.


                            94 Cases with Earnings Posted Before the Hearing

                                         16        22
                                        17%       23%
                                                                         ALJ addressed the
                                                                         earnings

                                          56                             ALJ did not address the
                                                                         earnings
                                         60%
                                                                         Unable to determine




Unresolved Work Activity Within 12 Months of Onset

Per SSA policy, an applicant’s claim should be denied if they had SGA less than 1 year
after disability onset since it may indicate that the 12-month duration requirement for
disability was not met. 21 The duration requirement for disability 22 begins at the time an
applicant is continuously unable to engage in SGA because of a medically determinable
impairment(s) that must last or be expected to last for a continuous period of not less
than 12 months. 23




20
  Of the 94 cases, SSA could not locate 20 ALJ decisions for our review. We were able to make
determination for 4 cases based on other developments by SSA.
21
     SSA, POMS, DI 13010.110.B.1 (March 20, 2012).
22
     SSA, POMS, DI 25505.025.D (March 5, 2012).
23
     “Applicant” refers to an adult over the age of 18. SSA, POMS, DI 25505.025.B (March 5, 2012).
Page 6 - The Commissioner


If the applicant returned to SGA less than 12 months after onset, but the work activity
later stopped, SSA policy states that a later onset date should be considered. 24 The
disability onset date should not be established before the last day of the most recent
period of SGA. 25

In 29 of the 56 cases with unaddressed earnings, the applicants returned to work less
than 12 months after disability onset and earned more than the SGA limit. The work
activities stopped before their hearing dates. In these cases, the ALJs made a
summary finding that the applicant did not engage in SGA after the disability onset
dates despite the fact that the earnings records indicated work activities.

The ALJs should have considered a later disability onset date after the date the
recipients stopped SGA. The disability onset date is important since it determines when
an applicant begins receiving benefits and the amount of benefits due the applicant.

Of the 29 applicants who returned to work at the SGA level within 12 months of onset,
we found that 19 received $147,900 in improper SSI payment months earlier than they
should have because ALJs did not properly consider their earnings after disability onset.

Unresolved Work Activity After 12 Months of Onset

In 27 of the 56 cases with unaddressed earnings, the applicants returned to work more
than 12 months after disability onset and stopped working before their hearing dates.
SSA concluded that the work activities after 12 months of onset did not affect the
recipients’ disability onset dates. Per SSA policy, if there was no SGA for
12 consecutive months from the date the applicant stated he became unable to work,
the disability adjudicator can establish onset in that period if the evidence of record
supports it. 26

While work activity that began more than 12 months after the disability onset date and
later stopped may not affect SSI eligibility, any income earned through work may affect
a recipient’s SSI payment amount. We found that 3 of the 27 recipients were improperly
paid $30,692 because of the earnings on their records.

EARNINGS POSTED AFTER A HEARING

In 18 of the 112 cases we reviewed, we found that earnings exceeding the SGA limit
were posted after the date of their hearings. In these cases, the ALJs could not have
addressed the earnings in their decisions because the earnings were not on the record
at the time of the hearing. SSA should have addressed the earnings once they were


24
     SSA, POMS, DI 13010.110B.1 (March 20, 2012).
25
     SSA, POMS, DI 25501.011B.1 (January 11, 2012) and DI 24005.001D.8 (June 1, 2010).
26
     SSA, POMS, DI 25501.011.B.2 (January 11, 2012).
Page 7 - The Commissioner


recorded, which it did for 4 of the 18 cases. The Agency did not consider the effect of
the earnings on disability onset and SSI payments for the other 14 cases.

                          Result of Review 18 Cases with Earnings
                                  Posted After the Hearing

                        SSA addressed the earnings   SSA did not address the earnings


                                                       4
                                                      22%



                                         14
                                        78%




Unaddressed Earnings Within 12 Months of Onset

If an applicant returns to work at the SGA level within 12 months of onset, it may
indicate that the 12-month duration requirement for disability was not met and the
disability claim should be denied. If the claim has already been adjudicated, it could
indicate that the prior favorable determination should be reopened and revised to a
denial or a later onset date if SGA stopped. 27

In 11 of the 14 cases, the applicants received earnings in excess of the SGA limit within
12 months of onset. The earnings were posted after the applicants received fully
favorable hearing decisions. SSA did not evaluate the effect of the earnings on
disability onset. The applicants’ onset dates should have been later than originally
determined at the hearing level. Of the 11 applicants, 10 were improperly paid almost
$92,000 because they received SSI payments for months before they became disabled
based on the definition of SSI disability.

Unaddressed Earnings After 12 Months of Onset

In 3 of the 14 cases, the wages on the earnings record were for a period more than
12 months after the date of disability onset. SSA did not consider the earnings when
computing the recipients’ retroactive SSI payment amounts. One applicant was
improperly paid almost $9,300. The other two applicants stated that the earnings after
disability onset did not belong to them, but SSA had not yet removed the earnings from
their earnings records.



27
     SSA, POMS, DI 13010.110.C.1 (March 20, 2012).
Page 8 - The Commissioner


CONCLUSIONS AND RECOMMENDATIONS
Our review found that SSA did not fully address income earned by SSI applicants after
their disability onset dates and before favorable hearing decisions. In 56 of the
94 cases with earnings posted before their hearings, the ALJs did not address the
earnings in their written decisions. In 14 of the 18 cases with earnings information
posted after the hearings, SSA did not address the effect of the earnings on disability
entitlement. We estimate that SSA improperly paid SSI recipients almost $5.6 million
because ALJs or SSA staff did not address the impact of earnings on their SSI disability
entitlement.

We also identified 1,873 cases from 1 segment of the SSR where the recipients
received earnings of more than 1 but less than 12 times the monthly SGA limit.
Although our analysis focused on the 112 recipients with the highest earnings amounts,
the earnings for these 1,873 recipients need to be reviewed by SSA to determine
whether the earnings affect the recipients’ disability entitlement. We have forwarded
these cases to SSA for review.

While the number of recipients with earnings between their disability onset date and
favorable hearing decision is relatively small when compared to the number of favorable
decisions overall, we believe SSA is missing the opportunity to use information at its
disposal to prevent improper payments.

Accordingly, we recommend that SSA:
1. Remind ALJs to address earnings posted after an applicant’s disability onset date
   and before his/her hearing date to determine whether the related work activity
   affects the applicant’s disability onset date or SSI eligibility.
2. Assess the feasibility of a systems alert that identifies cases where significant
   earnings for work performed before the ALJ decision are recorded for an SSI
   recipient after issuance of a favorable hearing decision.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendation 1 and disagreed with Recommendation 2.
Regarding the second recommendation, SSA stated it had tools in place to identify
cases with significant earnings. While SSA reports having some tools, we suggest that
it continue monitoring this issue and consider implementing an automated alert in the
future if cases with earnings after disability onset are posted after a hearing decision
continue to exist.

See Appendix D for the full text of SSA’s comments.




                                          Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology, and Sample Results
APPENDIX C – Substantial Gainful Activity Earnings Guidelines and Effective Dates
             Based on Year of Work Activity for Non-blind Individuals
APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
ALJ      Administrative Law Judge
C.F.R.   Code of Federal Regulations
FICA     Federal Insurance Contribution Act
IRS      Internal Revenue Service
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SGA      Substantial Gainful Activity
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                                     Appendix B

Scope, Methodology, and Sample Results
To accomplish our objective, we:

•     Reviewed the applicable section of the Social Security Act and other relevant
      legislation as well as the Social Security Administration’s (SSA) regulations, rules,
      policies, and procedures.

•     Selected 3,156 records of recipients in current pay status as of December 14, 2010
      from 1 segment of the Supplemental Security Record (SSR). 1 These recipients had
      earnings after their disability onset dates, but before a favorable decision at the
      hearing level between Calendar Years 2005 and 2010.

•     Determined the amount of earnings and its relation to substantial gainful activity
      (SGA) for each of these recipients. For those recipients who had earnings in more
      than 1 year during this period, we reviewed the year in which they had the highest
      earnings. Of the 3,156 recipients, 112 individuals had earnings exceeding 12 times
      the monthly SGA limit in the year we reviewed.

•     Analyzed the 112 cases to determine whether SSA appropriately addressed
      earnings received by the individuals after their disability onset dates and before
      favorable hearing decisions.

•     Reviewed queries from SSA’s SSR, Master Earnings File, eView, and Claims File
      Records Management System for each sample item.

•     Obtained the administrative law judge (ALJ) decision rationales for 87 of the
      112 cases from SSA’s records. SSA was unable to provide the rationale in
      25 2 cases.

•     Analyzed the decision rationales and requested that SSA confirm the results of our
      analysis. Specifically, we asked SSA to confirm whether the earnings we identified
      constituted SGA and the amount of related improper payments because of
      unaddressed earnings after onset. SSA forwarded the cases to field office staff for
      development.

•     Analyzed SSA’s results and incorporated its response in our analysis.


1
    One segment of the SSR represents 5 percent of the total population of SSI recipients.
2
 In 5 of the 25 cases, we did not rely on the ALJ rationales for our analysis because the earnings were
posted after the date of hearings.


                                                     B-1
Page 2 - The Commissioner


We conducted our audit in the New York Audit Division between April 2011 and
June 2012. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. The entities audited were the Office of
Disability Adjudication and Review and field offices under the Office of the Deputy
Commissioner for Operations. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Overpayment Estimate
We reviewed 112 SSI recipients in 1 segment of the SSR who had annual earnings
exceeding 12 times the monthly SGA limit in a year between their dates of disability
onset and the dates of favorable hearing decisions. We determined that SSA and ALJs
did not always address the earnings, which resulted in overpayments.

The characteristics found in one 5-percent segment of the SSR are considered
representative of any other segment in the SSR. Therefore, we estimated the number
of recipients overpaid and the amount of overpayments that occurred in the entire SSR
population by multiplying the number and amount of overpayments found in our review
by 20. The results of our review are shown in the table below.

              Overpayment                          Number of         Overpayment
                Description                        Recipients          Amount
ALJ did not address SGA within
12 months of disability onset that was
                                                      19                $147,924
posted to the earnings record at the time
of the hearing
ALJ did not address SGA that occurred
more than 12 months after disability
                                                       3                $30,692
onset that was posted to the earnings
record at the time of the hearing
SSA did not address SGA within
12 months of disability onset that was
                                                      10                $91,983
posted to the earnings record after the
date of the hearing
SSA did not address SGA after
12 months of disability onset that was
                                                       1                 $9,276
posted to the earnings record after the
date of the hearing
Total for One Segment of the SSR                      33                $279,875
Estimate for the Entire SSR (the total for
                                                      660              $5,597,500
one segment times 20)



                                             B-2
                                                                           Appendix C

Substantial Gainful Activity Earnings Guidelines
and Effective Dates Based on Year of Work
Activity for Non-blind Individuals1
                                                 Countable earnings of employees indicate
                                                  substantial gainful activity and countable
     For Month(s)                                income of the self-employed is substantial
                                                   if the amount averages more per month
                                                                     than
     In Calendar Year 2012                                                          $1,010
     In Calendar Year 2011                                                          $1,000
     In Calendar Year 2010                                                          $1,000
     In Calendar Year 2009                                                            $980
     In Calendar Year 2008                                                            $940
     In Calendar Year 2007                                                            $900
     In Calendar Year 2006                                                            $860
     In Calendar Year 2005                                                            $830
     In Calendar Year 2004                                                            $810
     In Calendar Year 2003                                                            $800
     In Calendar Year 2002                                                            $780
     In Calendar Year 2001                                                            $740
     In July 1999 Through December 2000                                               $700
     In January 1990 Through June 1999                                                $500
     In Calendar Years 1980 Through 1989                                              $300
     In Calendar Year 1979                                                            $280
     In Calendar Year 1978                                                            $260




1
    SSA, POMS, DI 10501.015 (October 21, 2011)
                  Appendix D

Agency Comments
                                      SOCIAL SECURITY

MEMORANDUM


Date:   October 5, 2012                                                         Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Supplemental Security Income Applicants with
        Earnings Received After Their Disability Onset Dates and Before Favorable Hearing Decisions”
        (A-02-10-20128)—INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Amy Thompson at (410) 966-0569.

        Attachment




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"SUPPLEMENTAL SECURITY INCOME APPLICANTS WITH EARNINGS
RECEIVED AFTER THEIR DISABILITY ONSET DATES AND BEFORE
FAVORABLE HEARING DECISIONS" (A-02-10-20128)


Recommendation 1

Remind ALJs to address earnings posted after an applicant’s disability onset date and before
his/her hearing date to determine whether the related work activity affects the applicant’s
disability onset date or SSI eligibility.

Response

We agree.

Recommendation 2

Assess the feasibility of a systems alert that identifies cases where significant earnings for work
performed before the ALJ decision are recorded for an SSI recipient after issuance of a favorable
hearing decision.

Response

We disagree. We already have tools in place to identify cases with significant earnings for work
performed prior to the ALJ decision. Rather than create a new tool, we believe reminding staff
to utilize the tools already in place, as agreed to in Recommendation 1, will meet the intended
purpose of this recommendation.




                                                D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division

   Christine Hauss, Audit Manager

Acknowledgments

In addition to those named above:

   Vincent Huang, Program Analyst

   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-02-10-20128.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
